No. ______________

In the Supreme Court of the United States

MERLE DENEZPI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
APPENDIX TO PETITION FOR WRIT OF
CERTIORARI

Memorandum Opinion and Order of the Tenth Circuit Court of Appeals
(October 28, 2020) …..……………..……………………………………..1
Order Denying Motion to Dismiss on Double Jeopardy Grounds, United
States

District

Court,

District

of

Colorado

(January

23,

2019)……………………………………………..………………….…….14

1

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020 Page: 1
FILED
United States Court of Appeals
Tenth Circuit

PUBLISH

October 28, 2020
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
____________________________________

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
No. 19-1213

v.
MERLE DENEZPI,
Defendant - Appellant.

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:18-CR-00267-REB-JMC)

Theresa M. Duncan, Duncan Earnest LLC, Santa Fe, New Mexico, for DefendantAppellant.
Jeffrey K. Graves, Assistant United States Attorney (Jason R. Dunn, United States
Attorney, with him on the brief), Durango, Colorado for the Plaintiff-Appellee.
Before HOLMES, SEYMOUR, and PHILLIPS, Circuit Judges.

SEYMOUR, Circuit Judge.

Appx. 001

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 2

Merle Denezpi, a Navajo tribal member, was arrested by Ute Mountain Ute tribal
authorities and charged with violating the Tribe’s assault and battery laws, as well as two
provisions of the Code of Federal Regulations on terroristic threats and false
imprisonment. He subsequently entered an Alford plea1 to the assault and battery charge
and was released from custody for time served. Six months later, Mr. Denezpi was
indicted in the United States District Court for the District of Colorado for aggravated
sexual assault in violation of 18 U.S.C. §§ 2241(A)(1)-(2) & 1153(a). The court denied
Mr. Denezpi’s motion to dismiss the indictment on double jeopardy grounds.
At trial, the victim (V.Y.) testified that Mr. Denezpi had previously been
incarcerated and implied that he had abused his ex-girlfriend. The court denied Mr.
Denezpi’s motion to strike the testimony. The jury convicted him and he was sentenced
to 360 months’ imprisonment. He appeals the denial of his motion to dismiss on double
jeopardy grounds as well as the denial of his motion to strike the victim’s testimony at
trial. We affirm.
I.
Merle Denezpi and V.Y. are both Navajo tribal members. On July 17, 2017, Mr.
Denezpi and V.Y. traveled from Shiprock, New Mexico to Mr. Denezpi’s girlfriend’s
house in Towaoc, Colorado, which is within the Ute Mountain Ute Indian reservation.
Inside the house, Mr. Denezpi allegedly threatened V.Y., barricaded the door, and forced

1

In North Carolina v. Alford, 400 U.S. 25, 33, 38 (1970), the Supreme Court allowed for
the acceptance of a guilty plea where the plea “contains only a waiver of trial but no
admission of guilt.”
2

Appx. 002

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 3

V.Y. to engage in non-consensual sex. Mr. Denezpi allegedly threatened V.Y. with
physical harm if she left the house and he hid her clothing to prevent her from going to
the police.
A.

Investigation of the assault
While Mr. Denezpi was sleeping in the early morning of July 18, V.Y. traveled on

foot from the house to the nearby Ute Mountain Ute casino. Shortly after arriving, V.Y.
was arrested for public intoxication and for an outstanding warrant for an unpaid fine.
While being transported to the local jail, V.Y. reported the assault to the tribal authorities,
who began an investigation. V.Y. underwent a Sexual Assault Nurse Exam (SANE).
The SANE nurse documented twenty-four injuries to V.Y.’s body including bruises on
her breasts, back, arms, and legs, as well as seven injuries to her genitals, including her
cervix and vaginal walls.
Approximately two hours after she reported the assault, officers arrived at Mr.
Denezpi’s girlfriend’s house to investigate V.Y.’s assault allegations. Mr. Denezpi
testified at trial that when he heard the officers knock, he fled through the second-floor
window, hiding in a neighbor’s yard for approximately thirteen hours. When the police
found Mr. Denezpi, he gave multiple contradictory accounts of the events with V.Y. and
repeatedly denied any sexual contact with her. After the officers confronted him with the
possibility of DNA evidence, Mr. Denezpi claimed he and V.Y. had engaged in
consensual sex. He admitted at trial that he lied to the police multiple times.

3

Appx. 003

Appellate Case: 19-1213

B.

Document: 010110429709

Date Filed: 10/28/2020

Page: 4

Mr. Denezpi’s prosecution by the Ute Mountain Ute Tribe
On July 20, Mr. Denezpi was arrested by tribal authorities and charged in the

Court of Indian Offenses of the Ute Mountain Ute Agency (“CFR Court”)2 with assault
and battery under 6 Ute Mountain Ute Code § 2, and with terroristic threats and false
imprisonment under 25 C.F.R. §§ 11.402, 11.404. Mr. Denezpi entered an Alford plea to
the assault charge and on December 6, 2017 he was released from custody for time
served. The remaining charges were dismissed.
C.

Mr. Denezpi’s prosecution in federal court for sexual assault
Six months later, Mr. Denezpi was indicted by a federal grand jury on one count of

aggravated sexual abuse in Indian Country in violation of 18 U.S.C. §§ 2241(a)(1)-(2)
and 1153(a). He moved to dismiss the indictment, claiming it violated the Fifth
Amendment’s Double Jeopardy Clause. The district court denied the motion to dismiss.
At trial, V.Y. testified for the government and was cross-examined by defense
counsel. In response to defense counsel’s questions about how she knew Mr. Denezpi,
V.Y. testified that she had previously seen Mr. Denezpi “when he got out of jail. I didn’t
know he got out of prison.” Rec., vol. V at 95. No objection was made to this testimony.
V.Y. also testified that she had seen Mr. Denezpi with his girlfriend who was “all beat up
. . . [and] abused.” Id. at 96. Defense counsel moved pursuant to Rule 403 of the Federal
Rules of Evidence to strike V.Y.’s answer from the record on the grounds that its
probative value was substantially outweighed by the danger of unfair prejudice. The

Also known as Courts of Indian Offenses, CFR courts are so-called because they operate
pursuant to federal regulations. See 25 C.F.R. § 11.100 et. seq.

2

4

Appx. 004

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 5

district court denied the motion. Neither the government nor defense counsel discussed
V.Y.’s response in closing arguments.
The jury returned a guilty verdict and the court sentenced Mr. Denezpi to 360
months in prison and ten years of supervised release. He appeals both the denial of his
motion to dismiss the indictment for double jeopardy and the denial of his motion to
strike V.Y.’s testimony.
II.
Mr. Denezpi contends that his trial in federal district court subsequent to the
proceedings before the CFR court violated the Fifth Amendment’s guarantee against
double jeopardy. Whether a prosecution constitutes double jeopardy is “a question of law
we review de novo.” United States v. Leal, 921 F.3d 951, 958 (10th Cir. 2019) (quoting
United States v. Rodriguez-Aguirre, 73 F.3d 1023, 1024-25 (10th Cir. 1996)). “The
defendant bears the burden of proving a claim of double jeopardy.” Id. at 959 (citation
omitted).
The Fifth Amendment prohibits more than one prosecution for “the same offence.”
U.S. Const. amend. V. The dual-sovereignty doctrine recognizes that “a crime under one
sovereign’s laws is not ‘the same offence’ as a crime under the laws of another
sovereign.” Gamble v. United States, 139 S. Ct. 1960, 1964 (2019). Therefore, “a single
act . . . may subject a person to successive prosecutions[] if it violates the laws of separate
sovereigns.” Puerto Rico v. Sanchez Valle, 136 S. Ct. 1863, 1867 (2016).
All parties agree that the Ute Mountain Ute Tribe has the inherent power to
prosecute criminal offenses committed by an Indian on its sovereign lands and that the
5

Appx. 005

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 6

source of this power is the Ute Mountain Ute Tribe’s “pre-existing sovereignty.” Id.
at 1872 (internal quotation marks and citations omitted). Mr. Denezpi, however, asserts
that the source of power to prosecute crimes in Indian Country in the CFR courts is
derived, at least in part, from federal power rather than from tribal sovereignty. He
therefore contends that his prosecution by both the CFR court and the federal district
court violated the Fifth Amendment’s Double Jeopardy Clause.
“To determine whether two prosecuting authorities are different sovereigns for
double jeopardy purposes, . . . the issue is only whether the prosecutorial powers of the
two jurisdictions have independent origins . . . .” Sanchez-Valle, 136 S. Ct. at 1867. The
dual sovereignty test, then, “hinges on a single criterion: the ‘ultimate source’ of the
power undergirding the respective prosecutions.” Id. at 1871 (internal citation omitted).
“The inquiry is thus historical, not functional–looking at the deepest wellsprings, not the
current exercise, of prosecutorial authority.” Id. Put simply, the issue in this case is
whether the power to prosecute Mr. Denezpi in the CFR court is derived from tribal
sovereignty or from the federal government.
We begin with history. Prior to the establishment of the United States, Native
American “tribes were self-governing sovereign political communities.” United States v.
Wheeler, 435 U.S. 313, 322-23 (1978) (citing McClanahan v. Arizona State Tax Comm’n,
411 U.S. 164, 172 (1973)). “Like all sovereign bodies, [the tribes] had the inherent
power to prescribe laws for their members and to punish infractions of those laws.” Id.
at 323. The incorporation of tribal territories into the United States served to limit, but
not eliminate, tribal sovereignty. See id. (“Indian tribes still possess those aspects of
6

Appx. 006

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 7

sovereignty not withdrawn by treaty or statute, or by implication as a necessary result of
their dependent status.”) One power that the tribes retained despite their dependency was
“the power to prescribe and enforce internal criminal laws . . . .” Id. at 326.
In an effort to promote “the then-prevailing federal policy of assimilation,”
Congress created the Courts of Indian Offences, known today as CFR courts, to “promote
acculturation on the reservations . . . .” Vincent C. Milani, Comment, The Right to
Counsel in Native American Tribal Courts: Tribal Sovereignty and Congressional
Control, 31 Am. Crim. L. Rev. 1279, 1281 (1994). But the Indian Reorganization Act
of 1934 ushered in a changed approach to federal-Indian relations and “increased [the]
authority delegated to the tribes . . . pav[ing] the way for tribes to develop tribal courts
and phase out the C.F.R. courts.” Id. Most CFR courts have since been replaced by
tribal courts with only five regional CFR courts currently operating across the country,
one of which is the Southwest Region CFR Court serving the Ute Mountain Ute Tribe.
See Court of Indian Offenses, Bureau of Indian Aff., https://www.bia.gov/CFRCourts
(last visited Oct. 14, 2020).
CFR courts exist today “to provide adequate machinery for the administration of
justice for Indian tribes in those areas of Indian country where tribes retain jurisdiction
over Indians that is exclusive of State jurisdiction but where tribal courts have not been
established to exercise that jurisdiction.” 25 C.F.R. § 11.102. While CFR courts are not
tribal courts, they nevertheless “function as tribal courts” and provide the “judicial forum
through which the tribe can exercise its jurisdiction until such time as the tribe adopts a

7

Appx. 007

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 8

formal law and order code.” Tillett v. Lujan, 931 F.2d 636, 640 (10th Cir. 1991)
(citations omitted).
In Wheeler, the Supreme Court recognized that “[t]he powers of Indian tribes are,
in general, ‘inherent powers of a limited sovereignty which has never been
extinguished.’” 435 U.S. at 322 (citing F. Cohen, Handbook of Federal Indian Law 122
(1945)) (emphasis in original). The Court thus held that when a tribe prosecutes a tribal
member, the tribe acts as an “independent sovereign” and therefore the Double Jeopardy
Clause does not bar tribal and federal prosecution. Id. at 329-30. While the Court in
Wheeler declined to address the issue we take on today—whether the CFR court “is an
arm of the Federal Government or . . . derives its powers from the inherent sovereignty of
the tribe,” id. at 327 n.26—the Court’s reasoning in Wheeler also applies to the CFR
courts.
When Congress created courts for the administration of justice on reservations, all
Indian courts were CFR courts. Wheeler established that the tribal courts, which have
replaced the majority of CFR courts, derive their power from the inherent “primeval
sovereignty” of the tribes that “has never been taken away . . . and is attributable in no
way to any delegation to them of federal authority.” Id. at 328 (emphasis added).
Congress’s creation of CFR courts, then, did not divest the tribes of their self-governing
power3 but instead merely provided the forum through which the tribes could exercise
that power until a tribal court replaced the CFR court. “That Congress has in certain

A tribe’s power of self-government includes the “tribe’s jurisdiction to punish its
members for infractions of tribal law.” Wheeler, 435 U.S. at 332.

3

8

Appx. 008

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 9

ways regulated the manner and extent of the tribal power of self-government does not
mean that Congress is the source of that power.” Id. Moreover, while the CFR courts
“retain some characteristics of an agency of the federal government,” Tillet, 931 F.2d
at 640, the Bureau of Indian Affairs serves only to administer the CFR courts as the
“machinery” that exercises the tribal power. See 25 C.F.R. § 11.102.
Notably, the Courts of Indian Appeals, the appellate body for the CFR courts, have
recognized tribal sovereignty as the source of power for the CFR courts, which “may
most accurately be characterized as [] ‘federally administered tribal court[s]’.” Gallegos
v. French, 2 Okla. Trib. 209, 234, 235 (Delaware CIA 1991) (explaining that a CFR court
“asserts the sovereignty of the Indian tribe for which it sits,” and operates as “a tribal
court which is administered by the federal government”); Ponca Tribal Election Board v.
Snake, 1 Okla. Trib. 209, 227-28 (Ponca CIA 1988) (“Courts of Indian Offenses . . .
function primarily as tribal courts, exercising the inherent sovereignty of the Indian tribe.
In fact, most courts fully administered by tribes today are the successor entities to
previously established Courts of Indian Offenses.”). As the Court of Appeals for the
Kiowa Tribe explained:
[CFR courts] have been acknowledged to operate under the residual
sovereignty of the tribes as well as under the authority of the federal
government . . . .
The Interior Department may provide funding and initial laws and
regulations of the court and may refer to these courts as ‘federal
courts’ . . . but such is not exclusive of tribal sovereignty. The tribes
can create their own courts independently or use or authorize the use
of the CFR courts as their own.
Kiowa Election Bd. v. Lujan, 1 Okla. Trib. 140, 151-52 (Kiowa CIA 1987).
9

Appx. 009

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 10

Mr. Denezpi asserts that the CFR’s power is derived from a dual wellspring of
both federal and tribal power. He claims the Courts of Indian Appeals decisions
“acknowledge tribal sovereignty, [but] also recognize that the CFR courts operate under
the authority of the federal government, not just the tribes.” Aplt. Br. at 16. But Mr.
Denezpi misses the point. Because it has never been withdrawn, the “‘ultimate source’ of
the power undergirding” the CFR prosecution of Mr. Denezpi is the Ute Mountain Ute
Tribe’s inherent sovereignty. Sanchez Valle, 136 S. Ct. at 1871. Therefore, the
subsequent prosecution of Mr. Denezpi in the federal district court did not violate the
Fifth Amendment’s prohibition against Double Jeopardy.
III.
Mr. Denezpi also contends the trial court erred when it declined to strike V.Y.’s
testimony that Mr. Denezpi had previously served time and had abused his girlfriend.
Rule 403 permits a district court to exclude evidence when “its probative value is
substantially outweighed by a danger of . . . unfair prejudice.” Fed. R. Evid. 403.
Generally, “[w]e review for abuse of discretion a properly-preserved Rule 403 objection
to the district court’s decision to admit evidence.” United States v. Archuleta, 737 F.3d
1287, 1292 (10th Cir. 2013) (citation omitted).
In this case, we need not address whether the district court erred. Even if the
district court improperly denied Mr. Denezpi’s motion to strike the testimony of V.Y., the
admission of the testimony was harmless. Harmless error is “[a]ny error, defect,
irregularity, or variance that does not affect substantial rights.” Fed. R. Crim. P. 52(a).
The standard we apply to harmless error review turns on whether the error is
10

Appx. 010

Appellate Case: 19-1213

Document: 010110429709

Date Filed: 10/28/2020

Page: 11

constitutional. United States v. Rivera, 900 F.2d 1462, 1470 (10th Cir. 1990) (en banc).
We have previously determined that errors under Rule 403 are reviewed under the nonconstitutional harmless error analysis. See United States v. Cristerna-Gonzalez, 962 F.3d
1253, 1266-67 (10th Cir. 2020). “A non-constitutional error is harmless unless it had a
‘substantial influence’ on the outcome or leaves one in ‘grave doubt’ as to whether it had
such effect.” Rivera, 900 F.2d at 1469 (citing Kotteakos v. United States, 328 U.S. 750,
765 (1946)).
Here, the evidence against Mr. Denezpi is overwhelming. The SANE examination
of V.Y. revealed substantial injuries to her body, including bruising on her breasts, back,
arms, and legs as well as injuries to her genitals. Mr. Denezpi’s DNA was found on
V.Y.’s genitalia. The SANE nurse testified at trial that V.Y.’s injuries were “consistent
with a nonconsensual sexual assault.” Rec., vol. V at 394. Mr. Denezpi told the police
multiple times that he had no sexual contact with V.Y. before claiming consensual sex
had occurred. At trial, he admitted that he hid from the investigating police officers on
the day after the incident and that he lied several times to the officers when they
questioned him about the events. Given these circumstances, we are not persuaded that
V.Y.’s challenged testimony had “a ‘substantial influence’ on the outcome” nor is there
“‘grave doubt’ as to whether it had such effect.” Rivera, 900 F.2d at 1469 (citation
omitted). Accordingly, any error in including the testimony was harmless.
For the foregoing reasons, WE AFFIRM.

11

Appx. 011

Appellate Case: 19-1213

Document: 010110429712

Date Filed: 10/28/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

October 28, 2020

Jane K. Castro
Chief Deputy Clerk

Ms. Theresa M. Duncan
Duncan Earnest
P.O. Box 2769
Santa Fe, NM 87102
RE:

19-1213, United States v. Denezpi
Dist/Ag docket: 1:18-CR-00267-REB-JMC-1

Dear Counsel:
Enclosed is a copy of the opinion of the court issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Pursuant to Fed. R. App. P. 40(a)(1), any petition for rehearing must be filed within 14
days after entry of judgment. Please note, however, that if the appeal is a civil case in
which the United States or its officer or agency is a party, any petition for rehearing must
be filed within 45 days after entry of judgment. Parties should consult both the Federal
Rules and local rules of this court with regard to applicable standards and requirements.
In particular, petitions for rehearing may not exceed 3900 words or 15 pages in length,
and no answer is permitted unless the court enters an order requiring a response. If
requesting rehearing en banc, the requesting party must file 6 paper copies with the clerk,
in addition to satisfying all Electronic Case Filing requirements. See Fed. R. App. P.
Rules 35 and 40, and 10th Cir. R. 35 and 40 for further information governing petitions
for rehearing.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

Appx. 012

Appellate Case: 19-1213

cc:

Document: 010110429712

Jeffrey Kane Graves
Tim Neff

CMW/sds

2
Appx. 013

Date Filed: 10/28/2020

Page: 2

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Robert E. Blackburn
Criminal Case No. 18-cr-00267-REB-JMC
UNITED STATES OF AMERICA,
Plaintiff,
v.
1. MERLE DENEZPI,
Defendant.

ORDER DENYING MOTION TO DISMISS ON DOUBLE JEOPARDY GROUNDS
Blackburn, J.
The matter before me is defendant Merle Denezpi’s Motion To Dismiss on
Double Jeopardy Grounds[#29],1 filed January 6, 2019. Mr. Denezpi maintains
indictment in this case is duplicative of his prior conviction by the Court of Indian
Offenses of the Ute Mountain Ute Agency and thus constitutes double jeopardy. The
government filed a response (see [#30], filed January 15, 2019). Having considered the
motion and response, and being apprised of the parties’ arguments and the relevant
authorities, I deny the motion.
On July 17, 2017, Mr. Denezpi and V.Y. traveled from Teec Nos Pos, Arizona,2 to
Mr. Denezpi’s girlfriend’s home in Towaoc, Colorado. Once inside the house, Mr.
Denezpi allegedly barricaded the door and, by physical force and threats, forced V.Y. to
1

“[#29]” is an example of the convention I use to identify the docket number assigned to a
specific paper by the court’s electronic case filing and management system (CM/ECF). I use this
convention throughout this order and other orders entered in this case.
2

Although the crime occurred within the tribal lands of the Ute Mountain Ute Tribe, Mr. Denezpi
and V.Y. are both members of the Navajo Tribe. Congress has recognized explicitly the Indian tribes’
‘’powers of self-government' to include ‘the inherent power of Indian tribes, hereby recognized and
affirmed, to exercise criminal jurisdiction over all Indians,’ including nonmembers.” United States v. Lara,
541 U.S. 193, 1998, 124 S.Ct. 1628, 1632, 158 L.Ed.2d 420 (2004) (quoting 25 U.S.C. § 1301(2)).

Appx. 014

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 2 of 8

engage in a nonconsensual sexual act. Tribal authorities arrested Mr. Denezpi the
following day and charged him with one count of assault and battery in violation of Title
6, Ute Mountain Ute Code, Section 2; one count of making terroristic threats in violation
of 25 C.F.R. § 11.402; and one count of false imprisonment in violation of 25 C.F.R. §
11.404.3 On December 6, 2017, Mr. Denezpi entered an Alford plea4 to the assault and
battery count5 and was sentenced to time served.
Six months later, a federal grand jury indicted Mr. Denezpi on one count of
aggravated sexual abuse in Indian Country. See 18 U.S.C. §§ 2241(a)(1)-(2) &
1153(a). Mr. Denezpi claims this prosecution violates the Fifth Amendment proscription
against double jeopardy because it was imposed not by a tribal court but by a so-called
“CFR court,” which, Mr. Denezpi argues, is an arm of the federal government and not a
separate sovereign. Because this argument misunderstands the source and nature of
the CFR courts’ authority, I reject it.
The Double Jeopardy Clause of the Fifth Amendment provides that no person
“shall . . . be subject for the same offence to be twice put in jeopardy of life or limb.”
U.S. CONST., Amend. 5. This motion implicates the dual sovereignty doctrine, an
exception to the general principle of double jeopardy, whereby “a single act gives rise to

3

These two provisions of the Code of Federal Regulations define criminal offenses enforceable
in the Courts of Indian Offenses.
4

So called based on the holding of North Carolina v. Alford, 400 U.S. 25, 91 S.Ct. 160, 27
L.Ed.2d 162 (1970), in which the Supreme Court sanctioned pleas by which “[a]n individual accused of
crime may voluntarily, knowingly, and understandingly consent to the imposition of a prison sentence even
if he is unwilling or unable to admit his participation in the acts constituting the crime” because he
“intelligently concludes that his interests require entry of a guilty plea and the record before the judge
contains strong evidence of actual guilt.” Id. 91 S.Ct. at 167.
5

The remaining two counts were dismissed with prejudice.

2

Appx. 015

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 3 of 8

distinct offenses – and thus may subject a person to successive prosecutions – if it
violates the laws of separate sovereigns.” Puerto Rico v. Sanchez Valle, – U.S. –, 136
S.Ct. 1863, 1867, 195 L.Ed.2d 179 (2016). See also Heath v. Alabama, 474 U.S. 82,
88, 106 S.Ct. 433, 88 L.Ed.2d 387 (1985) (”[W]hen the same act transgresses the laws
of two sovereigns, it cannot be truly averred that the offender has been twice punished
for the same offence; but only that by one act he has committed two offences.”) (internal
quotation marks omitted). The determination whether two entities are separate
sovereigns “does not turn, as the term ‘sovereignty’ sometimes suggests, on the degree
to which the second entity is autonomous from the first or sets its own political course.”
Sanchez Valle, 136 S.Ct. at 1867. Instead, the determination lies in the answer to “a
narrow, historically focused question. . . . whether the prosecutorial powers of the two
jurisdictions have independent origins – or, said conversely, whether those powers
derive from the same ‘ultimate source.’” Id. (citing United States v. Wheeler, 435 U.S.
313, 320, 98 S.Ct. 1079, 55 L.Ed.2d 303 (1978)). “The inquiry is thus historical, not
functional – looking at the deepest wellsprings, not the current exercise, of prosecutorial
authority.” Id. at 1871.
Accordingly, I turn to history. In the time before the United States became a
nation, “the tribes were self-governing sovereign political communities, possessing
(among other capacities) the inherent power to prescribe laws for their members and to
punish infractions of those laws." Wheeler, 98 S.Ct. at 1872 (internal citations and
quotation marks omitted). After the United States was formed and acquired tribal lands,
the tribes became “domestic dependent nations,” id.; see also Cherokee Nation v.

3

Appx. 016

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 4 of 8

State of Georgia, 30 U.S. 1, 17, 8 L Ed. 25 (1831) (Marshall, C.J.), and Congress
assumed "plenary authority to limit, modify or eliminate the [tribes'] powers of local
self-government," Santa Clara Pueblo v. Martinez, 436 U.S. 49, 56, 98 S.Ct. 1670,
1676, 56 L.Ed.2d 106 (1978). Thus, “in the exercise of the powers of self-government,
as in all other matters, the . . . tribes[ remain] subject to ultimate federal control.”
Wheeler, 98 S.Ct. at 1088.
The CFR courts were created by the Indian Department Appropriations Act of
1888. See Oliphant v. Suquamish Indian Tribe, 435 U.S. 191, n. 7, 98 S.Ct. 1011, 55
L.Ed.2d 209 (1978). At first, all tribal courts were CFR courts. In keeping with the
federal government’s then extant policy of assimilation on the Indian tribes, the
Secretary of the Interior, through the Bureau of Indian Affairs (“BIA”), “exerted a heavy
influence on these courts” through the promulgation of regulatory codes and the
appointment of Indian judges who were responsible to the BIA. See Vincent C. Milani,
The Right to Counsel in Native American Indian Tribal Courts; Tribal Sovereignty &
Congressional Control, 31 Am. Crim. L. Rev. 1279, 1281 (1994).
However, the passage of the Indian Reorganization Act of 1934 (“IRA”) “signaled
a major shift in federal Indian policy from assimilation to self-determination. Along with
a reduced BIA role and increased authority delegated to the tribes, the IRA paved the
way for tribes to develop tribal courts and phase out the C.F.R. courts.” Id. Today,
most tribes have established tribal courts. See 25 C.F.R. § 11.104 (setting forth criteria
for creation of tribal court). Only seven CFR courts – including those administered by
the Ute Mountain Ute Agency – remain in operation. See Tribal Law and Policy

4

Appx. 017

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 5 of 8

Institute, Tribal Court Clearinghouse, Tribal Courts (available at:
https://www.tribal-institute.org/lists/justice.htm#CFR Courts) (last accessed January 18,
2019). Although not tribal courts, CFR courts still “function as tribal courts; they
constitute the judicial forum through which the tribe can exercise its jurisdiction until
such time as the tribe adopts a formal law and order code.” Tillett v. Lujan, 931 F.2d
636, 638 (10th Cir. 1991) (citing 25 C.F.R. §§ 11.1(d) & (e)).
With that background, I turn to the matter before me. Long-standing Supreme
Court precedent makes clear that while Congress may limit or prescribe the way in
which tribal courts may operate, the right to punish crimes occurring on tribal lands
derives from the tribes’ “primeval sovereignty” which “has never been taken away from
them, either explicitly or implicitly, and is attributable in no way to any delegation to
them of federal authority.” Wheeler, 98 S.Ct. at 1088-89. The Wheeler decision,
however, examined the authority of a tribal court. The Court specifically noted that it
had no occasion to determine the precise issue presented here – whether CFR courts
derive their authority to punish crimes committed on their lands from the inherent
sovereignty of the tribe or, alternatively, whether that authority comes only via the
auspices of the federal government through the Code of Federal Regulations. See id.
at 1088 n.26.
Although the CFR courts “retain some characteristics of an agency of the federal
government,” Tillett, 931 F.2d at 640, the logic of Wheeler and its progeny clearly
indicates that the CFR courts’ power to punish crimes occurring on tribal lands derives
from their original sovereignty, not from a grant of authority by the federal government.

5

Appx. 018

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 6 of 8

When Indian courts were first established in the 19th century, all such courts were CFR
courts. The development of tribal courts came about more than 50 years later. Yet the
Wheeler Court did not say that the tribal courts’ powers to punish crimes within their
jurisdictions were returned to them by the Secretary of Interior once the tribal court was
created and the prior CFR court thereby extinguished.6 Instead, the Court recognized
that such powers were part of the tribes’ original sovereignty, which had never been
extinguished, despite the exercise of congressional “defeasance” as to other aspects of
tribal authority. Wheeler, 98 S.Ct. at 1088-89. See also Sanchez Valle, 136 S.Ct. at
1872 (“But unless and until Congress withdraws a tribal power – including the power to
prosecute – the Indian community retains that authority in its earliest form. . . . A tribal
prosecution, like a State's, is attributable in no way to any delegation . . . of federal
authority.") (citation and internal quotation marks omitted).
The law regulating Indian courts further supports this conclusion. The Indian
Civil Rights Act, 25 U.S.C. §§ 1301 - 1341, “recognize[s] and affirm[s]” the “inherent
power of Indian tribes . . . to exercise jurisdiction over all Indians.” 25 U.S.C. § 1301(2).
Although enacted in response to decisions limiting the tribes’ authority to prosecute nonmember Indians, see United States v. Lara, 541 U.S. 193, 199, 124 S.Ct. 1628, 163233, 158 L.Ed.2d 420 (2004), that statement of legislative intent is not explicitly limited to
tribal courts. The comments made in connection with the adoption of the legislation
incorporating this language add ballast to the notion that Congress perceives the tribes’

6

Indeed, the tribal courts themselves are subject to various limitations and requirements imposed
by federal statute, none of which “created the Indians’ power to govern themselves and their right to
punish crimes committed by tribal offenders.” Wheeler, 98 S.Ct. at 1088.

6

Appx. 019

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 7 of 8

criminal jurisdiction over their own lands to be part of their inherent sovereign authority.
See id.
Finally, the Courts of Indian Appeals long have recognized that CFR courts
exercise the inherent powers retained by the tribes as part of their original sovereignty.
As the Court of Indian Appeals for the Kiowa Tribe stated more than 30 years ago:
[T]oday [CFR] courts no longer can be categorized as [mere
administrative creations of the Interior Department], and in
fact have been acknowledged to operate under the residual
sovereignty of the tribes as well as under the authority of the
federal government.
Kiowa Election Board v. Lujan, 1987 WL 382994 at *4 (Kiowa CIA Nov. 19, 1987)
(footnote omitted). Other Courts of Indian Appeals also have reached this conclusion,
see Gallegos v. French, 1991 WL 733411 at *10 (Delaware CIA June 4, 1991); Ponca
Tribal Election Board v. Snake, 1988 WL 521355 at *5 (Ponca CIA Nov. 10, 1988)
(citing cases), as has at least one United States District Court, see Comanche Tribe v.
Welter, CIV-84-765-A (W.D. Okla. Sept. 4, 1986) (“The CFR Court does not represent a
donation of jurisdiction by the United States to the Comanche Tribe; rather it was
established by the United States as a channeling function simply to set up a tribunal, the
existence and procedure of which would thereby be made public, so that a tribe could
exert through it the powers it always had.”) (quoted in Kiowa Election Board, 1987 WL
382994 at *4 & n.10).
I therefore find and conclude that the CFR court which convicted Mr. Denezpi
was exercising the sovereign powers of the Ute Mountain Ute Tribe and is not an arm of
the federal government. The charges brought in the present federal indictment thus are

7

Appx. 020

Case 1:18-cr-00267-REB-JMC Document 32 Filed 01/23/19 USDC Colorado Page 8 of 8

not duplicative of Mr. Denezpi’s conviction in that independent and sovereign court, and
therefore his prosecution in this jurisdiction does not violate the Fifth Amendment’s
Double Jeopardy Clause. Mr. Denezpi’s motion to dismiss therefore must be denied.
THEREFORE, IT IS ORDERED that defendant Merle Denezpi’s Motion To
Dismiss on Double Jeopardy Grounds[#29], filed January 6, 2019, is denied.
Dated January 23, 2019, at Denver, Colorado.
BY THE COURT:

&ob
itu.,kL.n,_

Robert E. Blackburn
United States District Judge

8

Appx. 021

